<html>
<title> - UNITED STATES MILITARY SMALL ARMS REQUIREMENTS</title>
<body><pre>[Senate Hearing 115-425]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-425
 
             UNITED STATES MILITARY SMALL ARMS REQUIREMENTS

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AIRLAND

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
         


       Available via the World Wide Web: http://www.Govinfo.gov/
       
       
       
       
                        _______________

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
 34-118 PDF             WASHINGTON : 2019             
 
 
 
 
 
 
 
 
 
       
       
       


                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman            JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                 BILL NELSON, Florida
ROGER F. WICKER, Mississippi              CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                     JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                      KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota                 RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                          JOE DONNELLY, Indiana
THOM TILLIS, North Carolina               MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                      TIM KAINE, Virginia
DAVID PERDUE, Georgia                     ANGUS S. KING, JR., Maine
TED CRUZ, Texas                           MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina            ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                       GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                                     
                                     
                  Christian D. Brose, Staff Director    
             Elizabeth L. King, Minority Staff Director
                                     
              
                      ___________________________

                        Subcommittee on Airland
                        
                TOM COTTON, Arkansas, Chairman

                                      
JAMES M. INHOFE, Oklahoma             ANGUS S. KING, JR., Maine
ROGER F. WICKER, Mississippi          CLAIRE McCASKILL, Missouri
THOM TILLIS, North Carolina           RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                  JOE DONNELLY, Indiana
TED CRUZ, Texas                       ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                   GARY C. PETERS, Michigan

                                     
                                  (ii)

  


                          C O N T E N T S

                           ______________

                              May 17, 2017

                                                                   Page

United States Military Small Arms Requirements...................     1

Bednarek, Lieutenant General John M., USA (Retired), Former           4
  Chief, Office of Security Cooperation-Iraq.
Scales, Major General Robert H., Jr., USA (Retired), Former           8
  Commandant, U.S. Army War College.

                                 (iii)



             UNITED STATES MILITARY SMALL ARMS REQUIREMENTS

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:31 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Tom 
Cotton (chairman of the subcommittee) presiding.
    Present: Senators Cotton, Inhofe, Sullivan, King, 
McCaskill, Donnelly, and Peters.
    Also present: Senator Ernst.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The hearing will come to order. Good 
afternoon, everyone. Today, we are being joined by some of our 
colleagues from the Emerging Threats and Capabilities 
Subcommittee, so a warm welcome to all. Our topic is small arms 
modernization.
    Usually in these kinds of hearings, the attention goes to 
big-ticket items, things like missiles, ships, and tanks. But 
just because they have the highest price does not mean they 
have the greatest value. I think we would all agree the most 
precious thing in our arsenal is the lives of our troops. In 
spite of that, our planning process does not devote all that 
much time to the individual soldiers and their needs.
    So today, we are going to put them front and center. This 
is not sentimentality talking. I am afraid it is deadly 
practical. For years, our rivals have been developing new 
tactics, new small arms, and new body armor, all while we have 
been largely asleep at the switch.
    We should be especially concerned, I think, about our 
enemies' advances in anti-access and area-denial weapons. The 
thinking seems to be, if they cannot match our manpower, our 
firepower, or our brainpower, they can at least make it 
exceedingly treacherous for our troops to power through their 
defenses.
    These weapons are now so far advanced that our troops, if 
engaged in battle, could call for fire support only for their 
call to go unanswered. This makes it all the more important for 
each infantry squad to be as resilient and lethal as possible.
    So we need to take a closer look at what the individual 
soldier is working with--the standard-issue rifle for both Army 
and Marine infantry, the M4 carbine, which is a modified 
version of the Vietnam-era M16.
    The M4 has come a long way since the 1960s, but it still 
has limitations. Specifically, I am talking about the 5.56 
millimeter round it fires. There are lots of reports about 
enemy combatants surviving being hit by multiple 5.56 rounds.
    In Afghanistan, meanwhile, the Taliban uses a larger and 
longer range 7.62 millimeter round, which can hit coalition 
targets beyond the effective range of the 5.56.
    Now there is a new challenge. Everyone from Russia and 
China to Hezbollah and ISIS is using advanced body armor, which 
risks making the 5.56 round essentially obsolete.
    Now, we have tried to improve the 5.56 round by developing 
different versions with greater range and firepower, but I am 
not convinced this gives our troops the edge they need, 
especially if our enemies continue making advances in 
technology.
    That said, there are certain advantages to the 5.56. It is 
lightweight, which allows the average soldier to carry twice 
the ammunition capacity of the larger 7.62 round. In addition, 
it has less recoil compared to the 7.62. This means more shots 
can be fired downrange in quicker succession and with greater 
accuracy.
    The key is finding the right combination of weight, recoil, 
impulse, range, and lethality, and that is what we will be 
talking about today. I am especially interested to hear our 
witnesses take on three questions: What small arms threats do 
we face? What technologies can we use to mitigate them? How can 
we keep our combat forces ahead of our adversaries?
    I thank our witnesses for their testimony today. Lieutenant 
General John Bednarek is the former chief of the Office of 
Security Cooperation in Iraq. Major General Robert H. Scales is 
the former Commandant of the U.S. Army War College.
    Gentlemen, thank you for your testimony.
    Senator King?

                STATEMENT OF SENATOR ANGUS KING

    Senator King. Thank you, Mr. Chairman. Thank you for 
holding this important hearing.
    I also want to thank our witnesses for appearing today to 
discuss the small arms requirement of the U.S. military. You 
both possess extensive experience not only leading the soldiers 
in combat but also filling leadership positions within the Army 
responsible for ensuring the readiness of the force. I thank 
you both for your service and I look forward to hearing your 
well-informed perspectives on these issues, which have been 
shaped by your nearly 70 years of combined military experience. 
I am sure you probably were not all that happy to hear that 
particular figure.
    The lethality of soldiers in combat is based on a variety 
of interrelated factors, including but not limited to the 
soldiers' training and fitness combined with the accuracy, 
reliability, durability, and stopping power of the weapons they 
carry.
    With regard to small arms, the U.S. Military Forces dating 
back to the Revolutionary War have always sought the optimal 
weapon or mix of weapons while also accounting for the cost and 
supportability of such weapons. The same story holds true for 
today's services.
    Today's adversaries, including nonstate actors like al 
Qaeda, the Taliban, and ISIS, also continue to seek qualitative 
advantage over United States Forces in combat by adopting 
weapons that have greater range and stopping power.
    The U.S. military must continue to incorporate the lessons 
learned based on the experience of our warfighters over the 
past 16 years of combat around the globe. Potential state 
adversaries also continue to improve their small arms and body 
armor that are used by their military forces, and they are 
proliferated around the world.
    I understand the Army and Marine Corps have led efforts to 
modify and accelerate the development and fielding of next-
generation small arms capabilities, and we have to continue to 
make progress for our warfighters.
    I hope today's witnesses can provide their perspectives on 
how the U.S. Military selects, tests, and procures small arms 
for the use of our military personnel. I would like them to 
explain how the Department of Defense balances tradeoffs in 
cost, weight, lethality, supportability, and performance in 
making these decisions and any recommendations you, our 
witnesses, can make in how we should evaluate future 
procurements.
    I also hope our witnesses can illuminate the debate 
surrounding the possible requirement for a so-called 
intermediate caliber that falls between the NATO standard 
currently used by the U.S. and our partners.
    Finally, I would be interested in stepping back to get your 
thoughts on where upgrading our small arms capability should be 
prioritized with the Army's other modernization requirements.
    I appreciate it, Mr. Chairman, and I look forward to the 
hearing.
    Senator Cotton. I will now recognize Senator Ernst, who 
played a critical role in this hearing, as well as raising this 
issue to the attention of all the committee members.
    Senator Ernst?

                STATEMENT OF SENATOR JONI ERNST

    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Major General Scales. Thank you, Lieutenant 
General Bednarek. It is very good to see you again.
    I have pushed for action on small arms modernization since 
I entered the Senate. This hearing is extremely important to me 
and to our servicemembers. I was pleased to receive commitment 
from Secretary Mattis during his confirmation hearing to work 
with me on this issue, and I look forward to the discussion 
today.
    In the fiscal year 2016 National Defense Authorization Act, 
I secured a provision requiring a report from the Secretaries 
of the Navy and Army explaining their plan to modernize Marine 
Corps and Army infantry weapons. What I got back earlier this 
year confirmed what we all know. The military has plans to 
replace its small arms, but it is going to take decades.
    Meanwhile, Russia rapidly upgrades its rifles and invests 
in advanced body armor. China continues to field superior 
sniper rifles. Terrorist groups like ISIS get their hands on 
advanced weapons systems and protective equipment.
    When we have the Army Chief of Staff Mark Milley in front 
of the Armed Services Committee telling us he would rather take 
the money to buy those new handguns and go to Cabela's to 
procure them, we know that we are facing a failing defense 
acquisition system.
    Unfortunately, the struggle to field the best weapons for 
our infantry is nothing new. United States Army troops at war 
against Mexico in 1845 carried muzzle loaders nearly 80 years 
after the breach-loading rifle was invented. The United States 
entered World War I with a Springfield 1903 rifle, which held 
five rounds. The British carried the famous Lee-Enfield rifle, 
which held 10. Both were still inferior to the German rifle 
that was capable of firing more rounds per minute. In the 
1960s, for Vietnam, the Army initially refused the AR15 that 
became our M16 and M4 because they lacked any military 
requirement.
    Despite it all, our servicemembers have continued to win on 
the battlefield. But at what cost? How many firefights could 
have been one with better suppressive fire or a more lethal 
bullet? It is simply unacceptable that we continue to deny our 
servicemembers the best weapons available.
    This is the year that we need to take action. With the 
support of the Secretary of Defense and supportive service 
chiefs, it is time we upgrade our military's small arms as we 
rebuild our military.
    In this year's National Defense Authorization Act, I will 
be pressing the departments to prioritize the replacement of 
our small arms, and I look forward to your comments on how we 
can best do so.
    Thank you, gentlemen.
    Thank you, Mr. Chair.
    Senator Cotton. General Bednarek?

     STATEMENT OF LIEUTENANT GENERAL JOHN M. BEDNAREK, USA 
  (RETIRED), FORMER CHIEF, OFFICE OF SECURITY COOPERATION-IRAQ

    LTG Bednarek. Mr. Chairman, thanks to you and all the 
members for the opportunity to discuss this very important 
topic.
    I would like to give a few insights not only on the weapons 
systems but also, Mr. Chairman, that you have highlighted and, 
Senator King, some of the questions that you have kind of 
highlighted and asked us to address.
    The bottom line is, with our known threat environments that 
we have, the current weapons systems that we have, I want to 
share some thoughts and some potential options for us to 
consider.
    From a broader perspective, the committee has a tremendous 
opportunity here, and that is to reinforce what we all know is 
a higher priority not only in the Department of Defense budget 
and procurement activities to influence what the heck it is 
that we buy, but also to ensure that the lethality across our 
infantry formations, regardless of service, is exactly what we 
need for the threats that we know that we are going to face in 
the future.
    In our current formations that we have, Army, Marines, but 
our infantry combat troops clearly remain the most formidable 
ally on the planet. Our troops and our individual weapons are a 
system, and are a system of systems designed with one purpose 
in mind that, quite honestly, we often lose sight of, and that 
is to close with and defeat our adversaries.
    They have to be lethal. Lethality is the primary factor 
that guides whatever it is, the capabilities that we need to 
develop. It is all about this lethality, and it is all about 
ensuring that we can operate in all types of environments. It 
is all about readiness.
    Senator Ernst, you have highlighted our Chief of Staff of 
the Army Mark Milley highlighting his number one priority. It 
is really all about readiness.
    But the bottom line, again, from our infantry formations, 
it is all about killing our enemy. Again, all of our collective 
energies have to be focused on whether it is research, 
development, costs, et cetera, we have to highlight those 
future fights that we know are going to come.
    We do not want near-peer competitors. Our Nation expects 
our ground combat formations to be the best-equipped force on 
the Earth. We want overmatch. I certainly, as a prior leader 
and certainly having an opportunity to guide the architect of 
our forces in the future, I am not looking for a fair fight 
anywhere, and I want to make sure that our troops are 
appropriately equipped.
    The current M4 carbine, a lot of discussions about that, 
has served our Army and Marine Forces pretty well over the past 
decade-plus. Product improvements, as you have highlighted, 
have had incremental upgrades and changes that allow this to 
be, again, a well-serving caliber weapon system put in the 
hands of our infantrymen. I have trained with and I have been 
in firefights with that M4 carbine system of systems across 
Iraq over the past 9 years, and it has performed pretty well.
    However, as this committee has heard, multiple studies have 
shown that it is time to upgrade to a higher, more lethal 
caliber weapons system for infantry ground troops. Regardless 
of service or component, regardless of color of uniform, that 
is the challenge that we see faced.
    It is time to modernize our infantry weapon capabilities, 
and it is my opinion that our service chiefs, and you have 
highlighted both our Commandant of the Marine Corps Bob Neller 
and certainly Mark Milley, as already highlighted, they get it. 
They acknowledge it, and they are moving to get what they need.
    I would like to highlight a few factors in the time 
remaining. Number one--and, Senator King, you highlighted this 
and asked us to discuss this--about the threat environment and 
our adversaries. At the start of our current conflict, OIF, 
OEF, pick a named operation, we were shooting enemy wearing T-
shirts and baggy pants. Well, we are still shooting enemy 
wearing T-shirts and baggy pants, but now they are approaching 
with level II and level III body armor that precludes our 
lethality that we once dominated that infantry battlefield with 
regardless of range.
    We can get into the details, although that is not the 
purpose of this hearing, about the range and effective range of 
different caliber munitions. But with this near level II or 
level III body armor of our adversary, regardless of what 
country that is coming from, as adversaries of the United 
States of America, our capability to eliminate that threat at 
medium or long range is almost gone. So we must have small arms 
systems that can stop and can penetrate that increased enemy 
protection.
    So it is not just an AK-47 or PKM rifle with our 
adversaries. It is well-known across the planet. It is the 
force protection capability that our adversaries now have that 
they did not have just a decade ago.
    The second point is procurement. We have talked about this 
as well, and you asked us, both General Scales and I, to 
highlight this. All of our service chiefs, and you highlighted 
the discussion, Senator Ernst, about Mark Milley in taking 
several million dollars and going to Cabela's or wherever it is 
just to buy something to preclude this bureaucratic unique 
procurement process that we have. So both of the service 
chiefs, they are on public record on the excessive bureaucracy 
in our current processes.
    While I am certainly not a procurement and contracting 
expert, I certainly, and I know I share General Scales' 
comments on this, do not want to look another soldier in the 
eye and tell him or her that our leaders have not provided them 
the best weapons system available because it is tied up in 
acquisition red tape and masking tape. A 5 to 7 year 
acquisition cycle to procure anything, especially the weapons 
that we are talking about, Mr. Chairman, is unconscionable.
    The third and final thing I highlight is about the systems 
approach. I mentioned this before, and I think it is important 
to underscore. While our discussion today in this subcommittee 
is principally focused on the small arms weapons, we must 
remember that our services' strategic approach that gives the 
United States Combat Forces our decisive edge is an overall 
holistic approach.
    It is not just the weapons. It is not just a higher caliber 
bullet. It is not just caseless or polymer munitions. It is 
about the system. It is about our human dimension. It is about 
the training, the leader development that we provide our 
infantry soldiers, again, the Army and Marines, that make them 
the best close combat formations anywhere.
    This term of mission command, the trust, the leadership, 
the decentralization and the fact that we train our infantry 
combat formations to operate without specific instructions and 
to trust their leaders, marines, soldiers fighting together in 
teams, this holistic approach is real important.
    You know, I think, Senator King, you highlighted it, about 
the combination of all of our services, whether that is fighter 
aircraft, whether that is close air support, whether that is 
attack helicopters. A soldier with a radio, sites, optics, 
embedded laser rangefinders on his or her weapons system, these 
capabilities all put together is what makes the U.S. Ground 
Combat Forces important and gives us the overmatch.
    We need to sustain that for the long-term future and the 
systems approach with the capabilities that I have highlighted.
    I appreciate the opportunity to take questions later.
    [The prepared statement of General Bednarek follows:]

          Prepared Statement by LTG John M. Bednarek (Retired)
    Mr Chairman: Thanks to you and all the Members for the opportunity 
to provide a few insights on our Armed Forces small arms weapon 
systems. As stated, the purpose of today's hearing is to discuss a 
current assessment of United States military small arms requirements, 
our known threat environment, and to share thoughts on potential 
options to better equip our Infantry units with the most effective 
small arms available, including emerging technologies. From a broader 
perspective, this committee has a tremendous opportunity. That 
opportunity is to reinforce a higher priority in our DOD budget and 
procurement activities to directly influence the needed increased 
lethality across our Infantry formations. Clearly one challenge is the 
delicate balance to improve our capability, increase our battlefield 
lethality, while watching our government costs.
    Our Nation's ground forces, with their weapons and enablers, remain 
the most formidable ally on the planet. Our troops and their individual 
weapons, are a system of systems designed with one purpose: to close 
with and defeat our adversaries. They MUST be lethal. Lethality is the 
primary factor that guides capability development for all our combat 
troops to fight and win in all operating environments. It's all about 
readiness. It's all about effects to kill the enemy. Our Services--and 
our collective energies--must continue to research, develop, and 
provide the very best capabilities available for the future fights we 
know will come. We don't want ``near-peer competitors''. Our Nation 
expects our ground combat troops to be the best equipped force on 
earth. We want overmatch. I'm not looking for a fair fight anywhere.
    The current M4 Carbine family of weapons has served our Army and 
Marine Infantry Forces well for the past decade plus. Product 
improvements have provided our soldiers and marines the best available 
5.56 caliber weapon available. I have trained with, and been in 
firefights with--the M4 Carbine across Iraq over the past 9 years. It 
has performed well. However, as this Committee has heard, and multiple 
studies have shown, it is time to upgrade to a higher, more lethal 
caliber weapon system for our Infantry ground troops--regardless of 
Service or component. It's time to modernize our Infantry weapon 
capabilities. It's my opinion that our Service Chief's fully recognize 
this--CSA GEN Mark Milley & CMC Bob Neller--and they are moving out to 
get what they need.
    I'd to highlight three key factors for the Committee's 
consideration and assessment:
    1.  Threat Environment & Our Adversaries--At the start of our 
current named operations (OIF / OEF, etc), we were shooting enemy 
combatants wearing T-shirts and baggy pants--a LOT of them. They're 
still wearing T-shirts and baggy pants, but now with near level II & 
III body armor. Our capability to eliminate this threat at medium to 
long range distance is almost gone. We must have small arms systems 
that can stop and penetrate this increased enemy protection.
    2.  Procurement--All our Service Chiefs, especially GEN Mark 
Milley, are on public record on the current challenges and excessive 
bureaucracy in our current DOD processes. While I'm not a procurement 
nor contracting expert, I do not want to look another soldier in the 
eyes and tell him or her that our leaders have not provided them the 
best weapon system available because it's tied up in acquisition 
masking tape. A 5-7 year acquisition cycle to procure weapons and 
equipment that our warfighters needed yesterday is unconscionable.
    3.  Systems Approach--While the discussion today is principally 
focused on small arms weapons, we must remember that our Services 
strategic approach that gives U.S. Combat Forces the decisive edge is 
the holistic systems approach. It is NOT just our weapons. It's not 
just a higher caliber bullet, caseless or polymer munitions. It's about 
the ``system''. It is our ``human dimension''. The training and leader 
development we provide our Infantry Soldiers (and others) that make 
them the best close combat formations on the planet. It's the term of 
``Mission Command''. Trust and decentralization--the fact that we train 
our small units to operate without specific instructions and then trust 
them to execute based on commander's intent. This approach includes our 
soldiers and marines fighting together as teams. It includes sights, 
optics, embedded laser range finders, night vision, radios to 
communicate with fellow troops to provide over-watching fires. It's 
about supporting capabilities of mortars, artillery, helicopter gun-
ships, close air support, USAF fighter aircraft. It's about training 
our combined arms teams that gives us the overmatch. Sustained emphasis 
on this ``systems approach'' to our military capability must not be 
overlooked.
Ongoing Service Actions:
    Current and future capabilities include continuing the ``pure-
fleeting'' the Total Force with our current M4A1 carbine. Recent 
purchases of the new SIG SAUER pistol (modular system) starts fielding 
with the 101st AASLT DIV in several months.
    U.S. Special Operations Command, in coordination with the U.S. 
Marine Corps, is looking into sources for a brand new lightweight 
machine gun from defense contractors, one that can bridge the gap in 
distance and lethality between the 7.62-mm light machine gun and the 
.50 caliber M2. Other activities include:
    a.  Squad Designated Marksman Rifle (SDM). We must have increased 
caliber weapon systems in our baseline formations. The Army is buying a 
variant of the Heckler and Koch 417, 7.62 mm Rifle to be fielded as a 
SDM Rifle. Each Brigade Combat Team (BCT) rifle squad will be provided 
with a SDM Rifle to increase reach and lethality. Since this is a 
modified ``COTS'' commercial solution, fielding begins in 18 months.
    b.  Precision Sniper Rifle (PSR). The PSR will replace the M110, 
M107, and M2010 Sniper rifles and provide increased range and lethality 
against individual targets and light vehicles. This rifle will give our 
snipers the punch and reach that they have in the .50 sniper rifle in a 
much lighter package. Army-wide fielding is scheduled to start in 
fiscal year 2020.
    c.  M3 Carl Gustaf 84mm Recoilless Rifle. The Carl Gustaf is 
currently being fielded to Army Infantry Brigade Combat Teams (IBCT) 
Rifle platoons to provide increased capability. The M3/M3E1 enables 
rifle platoons to engage area targets with a manual air-bursting 
capability and point targets. Light armor targets can also be engaged. 
Lightweight Carl Gustaf fielding begins in fiscal year 2020.
    d.  Next Generation Soldier Weapons (NGSW). The NGSW family of 
small arms will replace current squad (rifle/carbine, squad automatic 
weapon, and sub-compact) weapons. Production is slated to start in 
fiscal year 2023. Informed by the Small Arms Ammunition Caliber Study 
(final report is expected this month), the NGSW will provide the 
increased range and lethality to maintain overmatch.
    e.  Small Arms Fire Control (SA-FC). SA-FC is under development for 
Precision (sniper) rifles, Crew Served weapons, and Squad/Individual 
weapons. SA-FC will provide a modular integrated set of systems 
(including determination of range, meteorological data, target 
acquisition, ballistic solution and display of adjusted aiming point) 
that when combined will increase the probability of hit and decrease 
the time to engage target sets. These solutions will leverage 
equivalent Family of Weapon Sights to provide day, night, and obscured 
battlefield environments capability. (Examples include the M901 7.62 
rifle, interchangeable upper receiver conversion kits; .338 Norma 
Magnum machinegun; etc) We must not wait to react to current or future 
threats. We must continue to leverage our wide and diverse intelligence 
activities and study our potential adversaries to gain and maintain 
soldier equipment--including improved small arms--superiority.

    Senator Cotton. General Scales?

 STATEMENT OF MAJOR GENERAL ROBERT H. SCALES, JR., USA (RET.), 
            FORMER COMMANDANT, U.S. ARMY WAR COLLEGE

    MG Scales. First of all, Mr. Chairman, thank you so much 
for the opportunity to allow me to address the committee.
    I have a written statement here, but let me just begin by 
going off the statement and say my passion for this subject 
goes back almost 50 years. On the 13th of June 1969, my unit 
was overrun by elements of 29th NVA [North Vietnamese Army] 
Regiment. Three of my soldiers, Privates Waddell, Worrell, and 
Fuentes, when I rolled their bodies over, they were lying on 
top of M16s that were broken at the hinge.
    If you are familiar with the rifle, it breaks at the hinge. 
Anytime you find a dead soldier with the rifle broken at the 
hinge, it meant he died trying to clear a jam. I have never 
forgotten that.
    So this has been something that, as all of you know, that 
has been with me for a long time. The answer is that the M4 
rifle and its antecedent, what I carried in Vietnam, the M16, 
is a terribly flawed weapon. It is a standard carbine in use by 
the infantry today.
    But its operating system is fundamentally flawed. All the 
things that we can do to marginally improve it are not going to 
make a big difference because operating system is literally 
dependent on a puff of gas that blows a floating bolt back and 
slides it back into position, and any amount of dust, in my 
case, dirt in our soldiers' rifles fouling from the round will 
cause the weapon to jam.
    Russian systems and, in fact, systems of most other Western 
militaries, use a solid operating system where the bolt does 
not float, but the mass of the moving parts are solid enough to 
cycle through the firing of the bullets without having to jam. 
Thus, the M4 is far more likely to jam than the Russian 
weapons.
    This risk of jamming affects every aspect of a fight. A 
Russian infantryman can fire about 140 rounds a minute without 
stopping in sustained fire. The M4 fires at roughly half that 
rate.
    So Mick and I both, I think, are arguing for a new 
generation weapon. But the question is always, what should this 
new generation weapon look like? Let me just give you a few 
characteristics.
    First, it should be modular. Multiple weapons can now be 
assembled from a single receiver or a chassis, if you will. So 
before a mission, let's just say a squad leader can allow his 
men to customize their weapons to make it a light machine gun, 
a carbine, a rifle, or an assault rifle.
    This ability to modularize means that you do not have to 
suboptimize the weapons that you take into the field. If you 
are in a city, you use the short barrel version. If you are out 
in the open area, you use a longer barrel version for longer 
range.
    As we said, the M4's 5.56 millimeter cartridge is just too 
small for modern combat. It is lack of mass limits its range to 
less than 400 meters.
    I believe that tomorrow's rifle should be something in a 
midrange caliber between 6.5 and 7 millimeters.
    Also, as Mick alluded, the cartridge could be made almost 
as light as the 5.56 in this heavier caliber by using a polymer 
shell or a plastic shell casing.
    This is interesting. The Army can achieve an infantry 
version of stealth by attaching sound suppressors to every 
rifle. So instead of merely muffling the sound of firing by 
trapping gases, this technology redirects the firing gases 
forward, capturing most of the blast and flash well inside the 
muzzle. I saw 3/5 marine demonstrate this in November at 29 
Palms.
    Look, no weapon is quiet, but when you come under fire and 
you go to ground and you return fire, as a rule, you do not 
shoot at the site of something. You always shoot at the sound. 
If your sound is one-fifth the decibel level of the enemies', 
that is a huge combat multiplier.
    A computer miniaturization now allows precision to be sort 
of squeezed into a digital site, about 2.5 ounces. All an 
infantryman has to do with this new technology is merely place 
a red dot on the target and push a button at the front of the 
trigger guard. The weapon quite literally fires itself. The 
computer automatically fires when a hit is guaranteed. Hunters 
have been using this technology for years. The Army refuses to 
adopt it.
    The Army argues that, in an era of declining resources, a 
new rifle will cost more than $2 billion. But if we only buy 
rifles for the infantry, a force that today, Army, Marine, and 
Special Forces of about 50,000, that total would be reduced to 
as little as $50 million. The Army and Marine Corps can keep 
their current stocks of M4s and M16s because the vast majority 
of men and women in the ground services are not infantrymen.
    Frankly, for other MOS's, like artillery and the admin 
services, the M4 works just fine.
    Now, there is some good news in this doleful saga. Reports 
about the fighting effectiveness of Putin's well-equipped 
little green men is changing the minds about the effectiveness 
of the M4. I think the Army universally realizes that the 5.56 
bullet cannot defeat Russian body armor, and it is easily out-
ranged by the latest Russian small arms. Senior leaders now, I 
think in both ground services, are calling for this middle 
caliber bullet.
    As a historian, I will tell you very briefly, the Army 
discovered the value of the middle caliber bullet in 1927 and 
was going to make the grand in a middle caliber bullet, but we 
had such a huge stockage of 306, the Chief of Staff at the time 
said no.
    The problem with all of this, Mr. Chairman, is the Army's 
acquisition executives tell me that they need 7 years to 
develop a new rifle. Mr. Chairman, 7 years is too long. With 
your help, we can develop and field a rifle in about a year.
    Here is what we should do. I think we need to find a way to 
wire around the acquisition system, to use something like we 
used with the Rapid Fielding Initiative in the early 2000s that 
we used to develop the MRAP [Mine Resistant Ambush Protected].
    I think Congress should authorize some amount of money, I 
say $100 million, to support a competition between many 
different makers. This could be gun makers. It could be weapons 
makers from other nations. I think it should be run or that the 
tests should be conducted by officers and NCOs [Non-
Commissioned Officers] in the closed combat arms, not 
acquisition community. I think the executive for managing this 
should be a consortium of ground service chiefs and perhaps the 
Commander of the Special Operations Command.
    I would say competition would be open to anyone, because 
what is so interesting are the technologies that I mentioned to 
you exist individually all across this enterprise. What I guess 
we are suggesting is, if we can bring all of them together into 
a single system, that will give us dominance. I think the 
winner should be awarded enough money to manufacture 100,000 
rifles over a reasonable period of time. This would allow not 
only the infantrymen to have this new weapon but also those who 
fight with the infantry, like sappers and fire support teams 
and intelligence specialists.
    Let me end my statement by just saying that my grandson is 
10 years old, and I am very proud of him. Both of his parents 
were soldiers. He tells me he wants to be a soldier someday. If 
we leave the Army's acquisition bureaucracy in charge of 
developing our next generation of small arms, I am fearful that 
he will be walking point some day with the same weapon that 
failed my soldiers so tragically 50 years ago in Vietnam.
    Mr. Chairman, please do not allow that to happen. Thank 
you.
    [The prepared statement of General Scales follows:]

     Prepared Statement by Major General (Retired) Robert H. Scales
    Mr. Chairman: Thank you very much for the opportunity to appear 
before your subcommittee. I've waited many years for this moment.
    Since the end of World War II the richest and most technologically 
advanced country in the world has sent its soldiers and marines into 
combat with inferior small arms. So inferior, fact, that thousands have 
died needlessly. They died because the Army's weapon buying bureaucracy 
has consistently denied that a soldier's individual weapon is important 
enough to gain their serious attention.
    The stories are a century old and as new as today. The venerable 
``Mu Deuce'' 50 caliber machine gun, the one most soldiers use in 
mounted combat, will celebrate its 100th anniversary in 2019. Try to 
imagine any service (other than our ground services) still holding on 
to a centenarian for a weapon. The M249 Squad Automatic Weapon 
performed so badly in Iraq and Afghanistan that the last commandant of 
the Marine Corps wrote a check to get rid of it in infantry squads. He 
replaced it with the superb HK 416, the finest automatic rifle in the 
free world. By the way it was a German made HK, not an American weapon, 
that killed bin Laden.
    After fifteen years of testing and a $175 million investment the 
Army achieved a breakthrough with acceptance of the XM 25 grenade 
launcher. This amazing weapon fires a ``smart'' grenade that uses a 
laser to determine the range to an enemy hiding behind defilade, then 
transmits that data to the grenade. The XM 25 reaches out with great 
precision to 500 meters or more and detonates the grenade directly over 
the head of an enemy hiding behind a wall or inside a building. No 
longer will the Taliban be able to huddle under cover until our 
infantry fires slacken before he runs away. Now he has nowhere to run. 
The X M 25 is the first truly revolutionary small arms technology the 
Army has developed in almost half a century. By the way, the Army 
leadership canceled the XM 25 program last week.
    The Army's Acquisition Community wasn't able to select something as 
simple as a pistol. After eight years and millions of dollars the only 
product they produced was a 400-page written ``Request for Proposal'' 
for an off the shelf commercial pistol. It took an enraged Chairman of 
this Committee and weekly interventions by the Army Chief of Staff to 
force the acquisition bureaucrats to pick the German made Sig Sauer 
pistol and get on with buying it for our soldiers.
    The most horrific story has to be the one about the rifle. During 
my 35 years in the Army, it became clear to me that from Hamburger Hill 
to the streets of Baghdad that the American penchant for arming troops 
with lousy rifles has been responsible for a staggering number of 
unnecessary deaths. In wars fought since World War II, the vast 
majority of men and women in uniform have not engaged in the intimate 
act of killing. Their work is much the same as their civilian 
counterparts'. It is the infantryman's job to intentionally seek out 
and kill the enemy, at the risk of violent death. The Army and Marine 
Corps infantry, joined by a very small band of Special Operations 
Forces, comprises roughly 50,000 soldiers, some 4 percent of uniformed 
Defense Department employees. During World War II, 70 percent of all 
soldiers killed at the hands of the enemy were infantry. In the wars 
since, that proportion has grown to about 80 percent. These are the 
(mostly) men whose survival depends on their rifles and ammunition.
    In combat, an infantryman lives an animal's life. The primal laws 
of tooth and fang determine whether he will live or die. Killing is 
quick. Combat in Afghanistan and Iraq reinforces the lesson that there 
is no such thing in small-arms combat as a fair fight. Infantrymen 
advance into the killing zone grimy, tired, confused, hungry, and 
scared. Their equipment is dirty, dented, or worn. They die on patrol 
from ambushes, from sniper attacks, from booby traps and improvised 
explosive devices. They may have only a split second to lift, aim, and 
pull the trigger before the enemy fires. Survival depends on the 
ability to deliver more killing power at longer ranges and with greater 
precision than the enemy.
    Any lost edge, however small, means death. A jammed weapon, an 
enemy too swift and elusive to be engaged with aimed fire, an enemy out 
of range yet capable of delivering a larger volume of return fire--any 
of these cancel out all the wonderfully superior and expensive American 
air- and sea-based weapons that may be fired in support of ground 
troops. There's also a moral dimension as well. An infantryman who 
perceives that his weapon is inferior loses confidence in the close 
fight and might well hold back fearing that his opponent can kill him 
at greater range and with more precision. A soldier in basic training 
is told that his rifle is his best friend and his ticket home. If the 
lives of so many depend on a rifle why can't the richest country in the 
world give it to them?
    The answer is both complex and simple. The M4, the standard carbine 
in use by the infantry today, is a lighter version of the M16 rifle 
that killed so many of the soldiers who carried it in Vietnam. (The M16 
is still also in wide use today.) In the early morning of July 13, 
2008, nine infantrymen died fighting off a Taliban attack at a combat 
outpost near the village of Wanat in Afghanistan's Nuristan province. 
Some of the soldiers present later reported that in the midst of battle 
their rifles overheated and jammed. The Wanat story is reminiscent of 
experiences in Vietnam: in fact, other than a few cosmetic changes, the 
rifles from both wars are virtually the same. The M4's shorter barrel 
makes it less effective at long ranges than the older M16--an 
especially serious disadvantage in modern combat, which is increasingly 
taking place over long ranges.
    The M16 started out as a stroke of genius by one of the world's 
most famous firearms designers. In the 1950s, an engineer named Eugene 
Stoner used space-age materials to improve the Army's then-standard 
infantry rifle, the M14. The 5.56-mm cartridge Stoner chose for his 
rifle was a modification not of the M14's cartridge but of a commercial 
Remington rifle cartridge that had been designed to kill small 
varmints. His invention, the AR-15, was light, handy, and capable of 
controlled automatic fire. It outclassed the heavier, harder-recoiling 
M14. Yet the Army was again reluctant to change. As James Fallows 
observed in 1981, it took the ``strong support'' of President Kennedy 
and Defense Secretary Robert McNamara to make the Army consider 
breaking its love affair with the large-caliber M14. In 1963, it slowly 
began adopting Stoner's invention.
    The ``militarized'' adaptation of the AR-15 was the M16. 
Militarization--more than 100 proposed alterations to supposedly make 
the rifle combat-ready--ruined the first batch to arrive at the front 
lines, and the cost in dead soldiers was horrific. A propellant ordered 
by the Army left a powder residue that clogged the rifle. Finely 
machined parts made the M16 a ``maintenance queen'' that required 
constant cleaning in the moisture, dust, and mud of Vietnam. In time, 
the Army improved the weapon--but not before many U.S. troops died.
    Not all the problems with the M16 can be blamed on the Army. Buried 
in the M16's, and now the M4's, operating system is a flaw that no 
amount of militarizing and tinkering has ever erased. Stoner's gun 
cycles cartridges from the magazine into the chamber using gas pressure 
vented off as the bullet passes through the barrel. Gases traveling 
down a very narrow aluminum tube produce an intense ``puff'' that 
throws the bolt assembly to the rear, making the bolt assembly a freely 
moving object in the body of the rifle. Any dust or dirt or residue 
from the cartridge might cause the bolt assembly, and thus the rifle, 
to jam.
    In contrast, the Soviet AK-47 (and most other western designed 
assault rifles) cycle rounds using a solid operating rod attached to 
the bolt assembly. The gas action of the AK-47 throws the rod and the 
bolt assembly back as one unit, and the solid attachment means that mud 
or dust will not prevent the gun from functioning. Fearing the deadly 
consequences of a ``failure to feed'' in a fight, some top-tier Special 
Operations units like Delta Force and SEAL Team Six use a more modern 
and effective rifle with a more reliable operating-rod mechanism. But 
front-line Army and Marine riflemen still fire weapons much more likely 
to jam than the AK-47. Failure to feed affects every aspect of a fight. 
A Russian infantryman can fire about 140 rounds a minute without 
stopping. The M4 fires at roughly half that rate. Today it still jams 
after overheating and in dusty field conditions, just like in close 
combat. In the open terrain of Afghanistan, the M-4 is badly out-ranged 
by Taliban weapons manufactured before the First World War.
    Sadly, until very recently the Army has done all it could to cover 
up the poor performance of the M4. After my article ``Gun Trouble'' 
appeared in January's Atlantic Magazine Army Public Affairs responded 
that the weapon was fine, as good as it could be. Then Rowan 
Scarborough of the Washington Times revealed a few months later that 
the M-4 was undergoing over 140 improvements. So, Rowan asked: ``why, 
if the gun was so perfect in January, was it necessary to rebuild it a 
few months later?'' Remember we aren't talking about stealth, 
encryption or lines of code here. There are no interoperability and 
integration issues. Nothing is hidden deeply in Area 51. It's a 7-pound 
piece of plastic and steel.
    What should a next-generation, all-purpose infantry rifle look 
like? It should be modular. Multiple weapons can now be assembled from 
a single chassis. A squad member can customize his weapon by attaching 
different barrels, buttstocks, forearms, feed systems, and accessories 
to make, say, a light machine gun, a carbine, a rifle, or an infantry 
automatic rifle.
    The military must change the caliber and cartridge of the guns it 
gives infantry soldiers. Stoner's little 5.56-mm cartridge was ideal 
for softening the recoil of World War II infantry calibers in order to 
allow fully automatic fire. But today's cartridge is simply too small 
for modern combat. Its lack of mass limits its range to less than 400 
meters. The civilian version of the 5.56-mm bullet was designed as a 
``varmint killer'' and six states prohibit its use for deer hunting 
because it is not lethal enough to ensure a quick kill. The optimum 
caliber for tomorrow's rifle is between 6.5 and 7 millimeters. The 
cartridge could be made almost as light as the older brass-cased 5.56-
mm by using a plastic shell casing, which is now in final development 
by the Marine Corps.
    The Army can achieve an infantry version of stealth by attaching 
newly developed sound suppressors to every rifle. Instead of merely 
muffling the sound of firing by trapping gases, this new technology 
redirects the firing gases forward, capturing most of the blast and 
flash well inside the muzzle. Of course, an enemy under fire would hear 
the muted sounds of an engagement. But much as with other stealth 
technology, the enemy soldier would be at a decisive disadvantage in 
trying to determine the exact location of the weapons firing at him.
    Computer miniaturization now allows precision to be squeezed into a 
rifle sight. All an infantryman using a rifle equipped with a new-model 
sight need do is place a red dot on his target and push a button at the 
front of his trigger guard; a computer on his rifle will take into 
account data like range and ``lead angle'' to compensate for the 
movement of his target, and then automatically fire when the hit is 
guaranteed. This rifle sight can ``see'' the enemy soldier day or night 
at ranges well beyond 600 meters. An enemy caught in that sight will 
die long before he could know he was seen, much less before he could 
effectively return fire.
    But infantrymen today do not use rifles equipped with these new 
sights. Hunters do. In fact, new rifles and ammunition are readily 
available. They are made by many manufacturers--civilian gun makers and 
foreign military suppliers that equip the most-elite Special Operations 
units. Unlike conventional infantry units, top-tier Special Operations 
units are virtually unrestricted by cumbersome acquisition protocols, 
and have had ample funding and a free hand to solicit new gun designs 
from private industry. These units test new guns in combat, often with 
dramatic results: greater precision, greater reliability, greater 
killing power.
    The Army has argued that, in an era of declining resources, a new 
rifle will cost more than $2 billion. But let's say the Army and Marine 
Corps buy new rifles only for those who will use them most, namely the 
infantry. The cost, for about 100,000 infantrymen at $1,000 each, is 
then reduced to roughly $100 million, less than that of a single F-35 
fighter jet. The Army and the Marine Corps can keep the current stocks 
of M4s and M16s in reserve for use by non-infantry personnel in the 
unlikely event that they find themselves in combat.
                            what to do . . .
    There is some good news in this doleful saga. Since 9/11 the M4 has 
been marginally effective against poorly equipped and armed insurgents 
like al Qaeda, ISIS and the Taliban. But reports about the fighting 
effectiveness of Putin's well-equipped little green men is disturbing. 
The Russians have spent their defense rubles wisely investing in a new 
family of assault rifles and the new Ratnick soldier systems that 
include a new soldier suite for protection, small arms and 
communications. Putin's philosophy is to spend money only on units he 
needs to advance his national security aims: Spetnaz, GRU, naval 
infantry, airborne infantry and special armored units.
    The Army now realizes that the varmint gun can't defeat Russian 
body armor and is easily outranged by the latest Russian small arms. 
Senior leaders are now calling for the adoption of a ``middle caliber'' 
bullet and a new rifle to shoot it. It's about time. The problem is 
that the Army's turgid acquisition gurus want 7 years to develop the 
new rifle.
    Mr. Chairman, 7 years is too long. With your help, we can develop 
and field the rifle our soldiers and marines deserve in about a year. 
Here is what we should do:
    For the 2018 National Defense Authorization Act, we request that 
you authorize 100 Million dollars to support an open competition to 
development a new family of dominant small arms. This single 
authorization should expire in a year. The effort should be run and 
overseen by ground combat arms officers and Non-Commissioned Officers. 
The Executive for managing this effort should be a consortium of the 
Ground Service Chiefs and the Commander, Special Operations Command. No 
acquisition agencies from any service should be involved in executive 
decision making or the management of the competition.
    Competition will be open to anyone, small business, big business, 
foreign, domestic or even clever individuals. After one year the 
consortium leadership will conduct the shoot-off. The shoot off will be 
open to all services, the media and congress and anyone from the public 
who is interested. Results will be scored and posted daily on a web 
site.
    The new rifle requirements document will be one page. It will 
speculate only six characteristics:
    <bullet>  First the rifle must be modular capable of being 
converted in the field to a carbine, rifle, machine gun or sniper 
rifle.
    <bullet>  Second, it will fire an intermediate caliber bullet 
probably a military version of the venerable Remington 270.
    <bullet>  Third, the rifle will be suppressed. A muzzle suppressor 
greatly reduces a rifle's report and in the confusion of a close fight 
a quieter rifle gives a decided advantage.
    <bullet>  Fourth, the new rifle will use a solid recoiling action 
like most first-rate assault rifles.
    <bullet>  Fifth, the rifle should have a snap on digital sight 
capable of killing reliably to a range in excess of 1,000 meters.
    <bullet>  Sixth, the rifle should be able to fire ammunition in a 
polymer casing. Polymer rounds weigh 30 percent less than brass 
cartridge casings.
    A desirable feature would be an attachment to allow the rifle to 
fire belted ammunition.
    The winner would be awarded about 100 million dollars to 
manufacture the first 100,000 rifles, enough to equip all close combat 
small units in the Army and Marine Corps as well as those who fight 
close to the infantry to include Sappers, Fire Support Teams, and 
intelligence specialists. The rest of the Army and Marine Corps will do 
just fine with the M-4 . . . for now.
    I am not alone in calling for a significant reform of our small 
arms systems. Many very senior combat veterans share my passion. One in 
particular comes to mind. This from an often-quoted note to a friend 
written in 2009:
    Yesterday I was at Walter Reed and among others spoke at some 
length with a fine young marine infantry officer, Lt David Borden, who 
lost a leg in Ramadi to a suicide bomber. He lost a leg along with 
other serious wounds, blast killed one of his lads, wounded others. 
Most notably, he emptied a magazine into the man charging them, at 
close range, even as his fellow marines riddled him as well at close 
range. Certainly, the guy was on drugs, but the bottom line was that 
our assault rifle did not have the stopping power to put the enemy down 
on first, second, third...fifteenth etc. rounds to the body . . .
    Once the problem is well defined (we are using a rifle whose 
caliber is illegal for shooting small deer in nearly all states due to 
its lack of killing power), we will move swiftly to the solution. While 
I believe, the solution is 6.8mm, I'm open to whatever will work. 
Physics says that the best advances in bullet technology will not give 
us the increased stopping power/energy of the 5.56, since any improved 
5.56 ammunition could only be more effective if adopted at 6.8mm or 
other heavier round.
    The sender of the message was General James Mattis.
    My grandson is ten and I'm very proud of him. He tells me he wants 
to be a soldier someday. If we leave the Army's Acquisition bureaucracy 
in charge of developing our next generation of small arms I'm fearful 
that he will be walking point some day with the same weapon that failed 
my soldiers so tragically fifty years ago in Vietnam.
    Please don't allow that to happen.

    Senator Cotton. Thank you, gentlemen, for your testimony.
    General Scales, why is this so hard? It is not a ballistic 
missile defense system. It is not a new stealth bomber. It is 
not a new aircraft carrier. It is a rifle. Why is it so hard? 
Why is the Acquisition Corps saying it is going to take 7 years 
to get a new rifle?
    MG Scales. I think the reason is just the system. I hate to 
say it, but some of the people I have talked to in the Army 
staff recently are telling me that the same regulations that 
dictate building a F-35 fighter are at play in trying to design 
and build a little 7-pound piece of plastic and steel.
    But here is another important point to make, Mr. Chairman. 
When the military tries to build something, they want to build 
it internally.
    But you are from Arkansas. There are a lot of hunters in 
Arkansas. You know as well as I do that a lot of the 
technologies that we are talking about are craft technologies. 
They come from weapons makers, civilian firms. They come from 
people who are not in the government but who are making 
cutting-edge advances. It is extremely hard for the military, 
particularly the Army acquisition system, to wire around the 
regulations and apply common sense very quickly and develop a 
rifle very quickly.
    There are always people in the Army who say that it is just 
too expensive. The other common objection I hear from the Army 
is, well, you know the logistical system cannot support another 
bullet. My point is, that is what Westmoreland said in 1965, 
that we could not support another bullet. But, you know, you 
cannot support another bullet until suddenly you can.
    As I said, we are not trying to design and build a weapon 
for everybody who wears a uniform, just for those who use it, 
as Mick says, to do the nasty business of intimate killing. If 
we are a military that can field 31 varieties of MRAPs in the 
most inhospitable region of the world, Afghanistan, I do not 
understand why our logisticians cannot add another bullet.
    Senator Cotton. Is the Acquisition Corps that said this 
would take 7 years the same Acquisition Corps that wrote a 350-
page request for proposals for a new pistol?
    MG Scales. Exactly the same.
    Senator Cotton. General Bednarek, do you have anything to 
add to the question of why this is so hard?
    LTG Bednarek. Mr. Chairman, I echo what General Scales 
highlighted. But also, you may recall, just years ago, in 
mobilizing the 39th Brigade Combat Team there in Arkansas 
similar challenges with not just weapons systems but other kit.
    General Scales highlighted the Rapid Fielding Initiative 
that the Army has done pretty darn well with the MRAP type of 
capability.
    So the bottom line is, although some of our procurement and 
acquisition challenges faced, whether that is just a simple 
bureaucracy of rules, regulations, et cetera, we know we can do 
this, because we have shown that we can do this with much 
larger capabilities that our soldiers need for the future.
    Senator Cotton. General Bednarek, General Scales suggested 
that not every soldier, not every branch, maybe not every 
service, would need this kind of weapon, but it would be only 
the core frontline fighting troops in the infantry. Would you 
agree with that opinion?
    LTG Bednarek. Senator, I do, but let me caveat.
    Right now, the Army, the system of record, as Senator Ernst 
highlighted earlier, the M4 carbine family, is on the glide 
path of what we call pure fleeting, which means that every 
soldier in the United States Army, that will be their 
individual weapons system. That pure fleeting will go through 
and including fiscal year 2022.
    As General Scales highlighted, we have to have a start 
point, and that start point must be our frontline combat 
formations.
    Again, regardless of component, and the Chief of Staff of 
the Army is adamant and I 100 percent agree, particularly with 
my prior privilege in our Army responsible for the training, 
readiness, and oversight of our National Guard and Reserve 
Forces across the United States, those soldiers, those 
infantrymen brigade combat teams, just like your 39th there in 
Arkansas, they have to have the same type of infantry 
capabilities as our frontline troops.
    But you have to start somewhere. You have to have a line of 
departure. That obviously is our special operations forces on 
the frontlines. Those are our infantrymen, again, regardless of 
component, and as General Scales highlighted, those who 
accompany those frontline troops, our fire supporters, are 
engineer sappers, et cetera. That has to be the first to fight.
    Senator Cotton. So 11 Bravo riflemen, whether they are in 
the 101st Airborne or in the National Guard, need this enhanced 
capability. But finance clerks, whether they are in the 101st 
or the National Guard, maybe can do with the M4?
    LTG Bednarek. Chairman, I agree with that. But the bottom 
line also is the service chiefs and their staff are pretty 
smart individuals, and I am very confident that given that 
decision space that they hold pretty close, they will make the 
right decisions for those prioritized formations heading out 
the door for our next deployers to get the capability in the 
hands that they need.
    Senator Cotton. General Scales, one final question. With an 
enhanced rifle, what are the implications for the infantry 
squad automatic weapon, the M249 and the grenade launcher, the 
M203?
    MG Scales. That is a great question. I have spent some time 
over the last year talking particularly to the Marines about 
this.
    I think we are in a transition zone, Senator. I think that 
the Marines have given up on the SAW [Squad Automatic Weapon]. 
They have just found it to be too unreliable. Many are saying 
that an intermediate caliber like this will allow one rifle to 
do all those things, to include a grenade launcher, because you 
have a bullet, probably more than you want to know, but an 
intermediate caliber bullet stays supersonic longer when you 
fire it, which means it has a flatter trajectory. So a lighter 
bullet, when compared with say the 7.62 that you are familiar 
with, actually has about 90 percent of the range and lethality 
of that bullet even though it is much lighter. It is small 
enough to be used in an automatic weapon that you can fire from 
the shoulder.
    So I think the Marines are certainly going in that 
direction, perhaps the Army too. The day is going to come when 
you can have one bullet, one family of weapons to perform all 
functions that you just mentioned. When that day comes, we will 
have a truly, truly lethal squad.
    Senator Cotton. Thank you.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Do we need to replace all the weapons in a squad or can it 
be a mix of weapons that can meet different requirements? Do 
you see what I am saying?
    MG Scales. Yes, sir. I do. Boy, that is a great question. 
Again, it is under heavy debate right now.
    I think what I hear from, again, from the Marines 
principally is that the squad has to have a way to not only 
shoot flat trajectory fire inside the squad but also to get 
behind obstacles and fire through windows in cities. So many of 
our enemies today hide behind mud walls or they hide in urban 
terrain.
    What most of the people I talk to tell me is that the old 
grenade launcher is not sufficient. We need an additional 
weapon.
    There are some, Senator, inside the Marine Corps who also 
argue for a heavier automatic weapon actually inside the squad. 
That, of course, is a debate that sort of transcends services.
    But I would say the starting point is to have this 
universal weapon, and then to augment it within the squad, kind 
of depending on the mission.
    Mick used the term ``pure fleeting.'' Five, six years ago, 
when we started off on this crusade, inevitably, the hands went 
up and people said, ``Bob, that is great idea. We would like to 
do it, but we have a policy in the Army of pure fleeting.'' I 
would hope that the number one decision that the Army and 
Marine Corps would make upfront is to give up on this idea of 
pure fleeting.
    Senator King. Can you define that term of ``pure fleeting"?
    MG Scales. Sir?
    Senator King. Define ``pure fleeting"?
    MG Scales. ``Pure fleeting'' means that every soldier in 
the Army, regardless of whether he uses his rifle or not, has 
to have the same one. He has to have the same boots, the same 
uniform, the same rucksack.
    Senator King. But every soldier does not have the same 
function.
    MG Scales. Bingo. That is exactly right. Most soldiers in 
the Army, 85 percent of the soldiers in the Army perform 
functions like every other civilian does. God bless them, they 
are great human beings. Only the infantry close with and 
destroy the enemy.
    As an example, a soldier shoots 80 rounds a year. At the 
Battle of Wanat in 2009, evidence indicates that some soldiers 
were cycling 5,000 to 7,000 rounds through a single weapon. An 
M4 is just not robust enough to do that.
    Senator King. What do the SEALs use now for a weapon?
    MG Scales. They use many things. They use the HK416, which 
is the Heckler & Koch weapon, the one that killed Osama bin 
Laden.
    Senator King. Would that be a suitable weapon that would 
meet the needs that you have described?
    MG Scales. It would.
    Senator King. Why don't we just buy that?
    MG Scales. Great question. I did not come here before the 
committee to advocate for a weapons maker, but let me say this. 
Most people will tell you that the H&K [Hekler & Koch] system 
is the best in the world.
    The Marines just bought--they call it the M27, but it is 
really the HK416. It is the most reliable action in the world.
    Senator King. You have used the term a couple times 
``wiring around the current acquisition process.''
    MG Scales. Yes, sir.
    Senator King. One way to wire around it is to buy something 
that is already available----
    MG Scales. Amen.
    Senator King.--without going through all the process of 
reinventing the----
    MG Scales. The only thing that would have to be--a couple 
things. Number one is, you have to ask a company like H&K, can 
you make it modular? I think the answer is yes. Number two, 
obviously, you would have to rebore it for a slightly larger 
bullet, and I understand that the magazine H&K makes actually 
will accept both the mid-caliber and the lighter caliber 
bullet. Then you would have to make it suitable for the other 
things that I talked about, a silencer and a site.
    Senator King. If we change the caliber, General Bednarek, 
if we change the caliber, does that create problems with NATO 
[North Atlantic Treaty Organization]? What is the constraint 
there?
    LTG Bednarek. Senator, a couple things, and I am going to 
address the NATO issue and the caliber weapons systems, and 
this term that many of us are very familiar with of 
interoperability with our partners, both coalition and allies, 
et cetera.
    Number one, and to get back to General Scales' comment 
about the Heckler & Koch 417, the Army is purchasing, based on 
their current small arms strategy, a variant of the HK417, 
which is a 7.62 rifle.
    It is part of the earlier question, Senator, that you asked 
about, does everybody in a rifle squad have the same kit? The 
answer is no. They have the baseline weapon, but they also have 
specialty weapons. The HK417 is one of these of a ``squad-
designated marksman.'' So you have one individual who is a 
little bit higher trained, certainly designated as a marksman 
based on that team leader or squad leader. They also have a 
precision sniper rifle embedded within that squad or platoon.
    They also have--now the Army has already fielded, and more 
to come with additional variants, a larger caliber, what is 
called the Carl Gustaf. It is an M3 84 millimeter recoilless 
rifle that fielded back--when I first fired it was back in 
1991. They have adjusted it since then.
    But to your point of capabilities within a squad, within a 
rifle platoon, there are some capabilities that the Army and 
the Marines already have embedded within their formations now 
that provide them, as General Scales, highlighted based on the 
mission set at hand, based on what their requirement is to 
accomplish that particular day, night, or mission set, they can 
accomplish what they need to get done.
    Senator, to your question on NATO, it gets complex in the 
sense of ammunition stocks, stockpiles, locations, where they 
are, who we are partnered with, et cetera. I will just give you 
some near-term examples.
    Senator King. I am going to urge you to be brief, because I 
have a clock running.
    LTG Bednarek. Yes. For our partners in Iraq, most of those 
have, obviously, AK-47 7.62. As we start working with them in 
foreign military sales with our Iraqi partners, certainly the 
system that we are using is the M4 carbine. But for our NATO 
allies, 62 countries involved with the coalition effort in 
Operation Enduring Freedom and Iraqi Freedom, the challenges 
associated with stockpiles and working through those weapons is 
a challenge because you are working with different systems. The 
spare parts, breakage, ammunition, caliber weapons do not fit 
all weapons, and it is problematic for the ground force 
commanders.
    Senator King. General Scales, one more very quick question. 
Does the current M4 bullet penetrate current body armor on our 
adversaries?
    MG Scales. Sir, it does not.
    Senator King. Isn't that the end of the discussion? If it 
doesn't, we have to have a new weapon.
    MG Scales. Let me just build off what Mick said in about 20 
seconds or less. He mentioned commonality.
    Well, the NATO countries, that enemy they all face is 
Russia. I will guarantee you that, over time, if the NATO 
armies realize that the weapons, the 5.56 weapons that they 
have, will not penetrate Russian body armor, and they will not, 
that it is inevitable that, spontaneously, the other armies of 
the world will have to upgrade their weapons to a heavy 
caliber. Otherwise, they will be defeated by the Russians in 
the close infantry fight.
    Senator Cotton. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you again. Again, Secretary Mattis 
committed to me during his confirmation hearing that he would 
work with us to modernize our small arms.
    General Scales, you note how it took strong support from 
President Kennedy and Secretary of Defense McNamara to consider 
the M16. As we see our adversaries modernize, I believe we are 
going to need this type of pressure from this administration as 
well to ensure that this actually happens. That is why I have 
requested this hearing.
    Do you agree that we need to pressure the administration 
and signal that it is taking way too long? Seven to 10 years is 
way too long. Would you agree we need pressure to make this 
happen?
    MG Scales. Absolutely, but I will also say, from my long 
association with General Mattis, working on this specific 
project beginning in 2004, that as far as the Secretary of 
Defense is concerned, you are pushing on an open door. This has 
been a passion of his.
    I remember, a quick war story, in 2004, we started off on 
what was called the national program for small unit excellence 
when he was commander of MCCDC, Marine Corps Development 
Command, and later Joint Forces Command.
    Secretary Mattis is passionate about this because he 
remembers the second battle of Fallujah, and several marine who 
were killed, needlessly killed, by suicide bombers who cannot 
be stopped with the M4. He has that, I believe, embedded in his 
brain.
    So I believe that the best advocate for this is going to be 
the man at the top. That is why this hearing is so important, 
to let him know that Congress is behind him, that you 
understand the nature of the problem, and that you hopefully 
will be able to give him the support he needs to press forward 
with this.
    Having said that, there are a lot of people in OSD that 
would rather make antiballistic missiles and supersonic 
aircraft than rifles. Lockheed Martin does not have a rifle 
division in their corporation.
    Senator Ernst. What a great point, General. Thank you very 
much.
    Continuing with that same line of thought as well, General 
Bednarek, we have committed to fielding platforms like the F-
35, very complicated systems out there. Why is it that we 
cannot field a rifle?
    LTG Bednarek. The answer is there is no good reason why we 
cannot, and we absolutely should.
    In the broader scheme of things, Senator, to your point, 
reinforced by General Scales, with the broader, complicated, 
billions of dollars of systems that the United States has a 
signature platform to accomplish our Nation's bidding, there is 
absolutely no reason why we should not have a capable, higher 
caliber, modular weapons system in the hands of our infantry 
combat troops.
    Senator Ernst. I know that General Miller had told me this 
as well when we were visiting about small arms modernization, 
that, of course, the marine is very emotional about their 
rifle.
    You know that, General Scales, as well.
    So do you, Senator Sullivan. You understand that.
    For our warfighters like Senator Cotton, we need the best 
available small arms for our infantrymen. This should not be an 
issue. This should not be an issue. I think we are signally 
loud and clear to the man at the top that this needs to happen.
    Now, General Bednarek, you also say in your opening 
statement that troops and their individual weapons are a system 
of systems and that they are designed with one purpose, to 
close with and defeat our adversaries, and they must be lethal.
    So do you believe the answer to a more lethal weapons 
system is a commercial off-the-shelf product, as we have 
discussed earlier? Or something that maybe we should have 
industry specifically develop?
    LTG Bednarek. Senator, thank you for the question.
    Again, I think a COTS [commercial off-the-shelf] system, a 
commercial off-the-shelf, certainly is one course of action, as 
General Scales highlighted. He and I talked about this before.
    Competition is always good, but it cannot be tied up in 
absolute bureaucratic masking tape for years. It is absolutely 
unconscionable, in my view.
    We can do this. It was shown in the Rapid Fielding 
Initiative it should not take so long. We have to continue to 
press this really hard.
    I think the service chiefs are behind this, as I 
highlighted in my opening statement. They want the best thing 
for our infantrymen as well, to defeat our adversaries.
    Senator Ernst. Thank you, gentlemen.
    Thank you, Mr. Chair.
    Senator Cotton. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General Scales, I think your opening statement, your first 
sentence here, ``Since the end of World War II, the richest and 
most technologically advanced country in the world has sent its 
soldiers and marines into combat with inferior small arms. So 
inferior, in fact, that thousands have died needlessly.'' I 
think that kind of opens and shuts the point of the hearing.
    I think Senator King's point is also worth reemphasizing. 
You mentioned that the 5.56 caliber ammo cannot pierce the 
Ratnik soldier system of the Russian body armor? What else 
cannot the 5.56 penetrate? I noted in one of your testimony 
that six different states have outlawed its use because when 
you shoot a deer with it, it is considered cruel.
    MG Scales. It is not lethal enough to take down an animal, 
Senator, so there are several states that have banned its use.
    In fact, when Mr. Stoner first developed the AR-15, in 
those days, in the 1950s, it was called a 223. If you look on 
the box of ammunition, it is called a varmint, a varmint shell. 
In other words, it is intended for rabbits and small animals 
rather than something big like a deer or a human being, for 
that matter.
    Senator Sullivan. I think I want to commend Senator Ernst 
for being the motivator behind this hearing. But I think this 
should be an issue that is that not difficult.
    When the Army is talking about cost, if it is going to save 
thousands of lives of frontline troops, then it should not even 
be debatable.
    Let me ask another kind of related question. Have you 
looked at all in terms of our sniper rifles and their ranges? 
In the Marine Corps, there is some concern about the M40A5, 
which is the Marine sniper rifle right now. I think the range 
is about 1,000 yards. I know that 50 cal Barrett sniper rifle 
has a much greater range.
    But are you also concerned with regard to our snipers, Army 
and Marine Corps snipers, that our ranges are such that we 
cannot compete against their snipers?
    MG Scales. I know Mick knows more about this than I do, but 
this is a great point.
    The technology today, particularly in the technology of the 
bullets and some of the great refinements made in telescopic 
sites, particularly night sites, the standard now, Senator, for 
the British and for JSOC, the standard now on flat terrain is 
1,600 yards.
    Senator Sullivan. Right.
    MG Scales. In fact, the world record, which is claimed by a 
British SAS [Special Air Service] sniper, is something like 
1,850. My gosh, that is a mile.
    So the technology has come a long way. Sadly, until very 
recently, the Army's standard sniper rifle, they are changing 
it now, but the Army's standard sniper rifle was invited in 
1907. It is an adaptation of the Remington Model 70 that I used 
in Vietnam.
    Senator Sullivan. So do you think we need to look at that, 
not just the caliber issue, but do you think we need to look at 
the sniper rifle? I know that SOCOM [Special Operations 
Command], and as you mentioned JSOC [Joint Special Operations 
Command], has a different rifle, but I am talking about Marine, 
Army snipers who should be having the ability to range the 
enemy at the same distance other members of the U.S. military 
have.
    Should we be looking at that as well?
    MG Scales. Mick probably will get mad at me for saying 
this, but I get a little upset sometimes when I hear from 
people who argue with me, that say, ``Well, that is just for 
JSOC. That is for the SEALs. That is for the Rangers. That is 
for Delta. Not for infantrymen.'' I get angry when I hear that.
    Senator Sullivan. Just for the record, the Marine Corps 
thinks it is special without the name ``special.''
    MG Scales. Well, okay, I'm not going to go there, Senator.
    Senator Sullivan. You don't need to you, General.
    MG Scales. I guess my point is, when you have a dead 
soldier on your hands who gets shot from an enemy firing at 
long range, no one really puts him in a body bag and worries 
about what insignia he has on his collar. I get pretty--if it 
is good enough for--if it something like a rifle that is good 
enough for JSOC, it should be good enough for a Marine rifleman 
and an Army rifleman.
    Senator Sullivan. Agreed.
    LTG Bednarek. Senator, just a couple points. You hit it 
right on the head about the lethality of distance. Regardless 
of service, to include our special operations forces brothers, 
the bottom line, I agree with General Scales, it does not 
matter what the hell color uniform it is. You have to have the 
best in your hand.
    If you are a designated marksman or a sniper, you are going 
to reach out and touch somebody, and the rest of your mates 
expect you to do that.
    But I highlight back to what I mentioned earlier with 
Senator King of the system of systems, because it is also, as 
you well know, is the training. It is the discipline, it is 
firing your weapon all the time, confidence and competence, 
with whatever capability that you have. It is about use of 
sensor to shooter. It is drone technology, it is communication, 
it is somebody with an overwatch position being able to dial in 
at that particular range, whether that is 1,600 yards where the 
marine is currently at 1,000 yards with their M4085, whatever, 
the 110 from the Army. You have to train and be confident and 
comfortable with whatever system that you have, but it has to 
be the best.
    MG Scales. One final thing, Senator. I was at Fort Benning 
2 weeks ago. I said I am going to testify before the Senate. 
Just give me a template of what I should tell them. They told 
me something really--this is the two-star head of the infantry 
center.
    He said 1,000 yards, 1,000 meters. I said, what does that 
mean? He said 1,000 meters, to Mick's point, with the ability 
to not only see but to identify your target, in other words, 
not just motion but an actual soldier out there, and 1,000 
yards to reach them with weapons that are organic to the squad.
    He said take that to the bank. If we have that capability, 
he told me, regardless of the system at hand, then we dominate 
the close fight.
    That is something that I think we need to embrace as we go 
into the future.
    Senator Sullivan. Great. Thank you.
    Thank you, Madam Chair.
    Senator Ernst. [Presiding.] At this point, we will go ahead 
and take another round of questions, if Senators have 
additional questions they would like to ask.
    Senator King?
    Senator King. The HK416, which I understand is also the 
M27, that is a 5.56. Can that be modified to take a larger 
caliber?
    MG Scales. Yes, sir, it can, and it already is. HK, which 
is the company we were talking about earlier, has that rifle, 
that system, in many, many different calibers, so it is not a 
big deal.
    Senator King. So that is not a big deal.
    MG Scales. No, sir, it is not.
    Senator King. Because larger caliber seems to be part of 
what we are coming away from this meeting with.
    MG Scales. Yes, sir.
    Senator King. Both for body armor and for distance.
    MG Scales. Yes, it comes down to physics. Energy equals 
mass times velocity. If you do not have the mass, then you do 
not have the energy.
    Senator King. Do either of you have any idea how many M4s 
there are deployed in the services today?
    MG Scales. No, sir. I have no idea.
    Senator King. We have not talked about cost, and the HK is 
something like three times more expensive, however, if we are 
buying them 100,000 at a time, I do not know what the number 
is, presumably, that would bring the price down.
    MG Scales. Sir, the Chief of Staff of the Army was very 
successful in negotiating with Sig Sauer. That is the company 
that we finally decided should make our pistol. He was able to 
reduce the price from the commercial price, the wholesale 
price, by a factor of two-thirds.
    I think if a gun maker knew that the world standard was 
going to be made at his company, he would be more than happy to 
get that price down.
    LTG Bednarek. That also, Senator, goes to your question 
earlier about our allies and our coalition partners. If they 
know the United States is purchasing a higher caliber weapons 
system, that has gone through the rigorous testing, et cetera, 
that General Scales has highlighted, there will be additional 
sales and a marketing perspective. So it is, again, total 
quality and quantity, the price will come down.
    Senator King. I do not want to get too dramatic, but it 
seems to me, if we are fielding a weapon as the standard weapon 
that cannot penetrate the body armor of our adversaries in a 
close fight, that is unethical.
    MG Scales. You are absolutely right.
    Senator King. It is wrong to put our people in that 
position.
    MG Scales. Could I just amplify what you said?
    We are not talking about killing from a distance here, 
Senator. We are talking about what some psychologists call 
intimate killing, where you see your enemy, where you kill him, 
and you watch him bleed out. I remember in Vietnam in my unit, 
I noticed there was a period in 1969 when some of my soldiers 
were carrying AK-47s. I mean, what type of condemnation is 
that?
    So a rifle is as much a moral instrument as it is a 
physical instrument. If you believe that what you were carrying 
out the 50-meter fight is inferior to your enemy's, that 
affects everything.
    Senator King. That affects your mental state.
    MG Scales. Audacity, courage, initiative, elan, as Mick 
says, the human characteristics that make our infantry 
dominant. If you really believe what you are holding is the 
best damn assault rifle in the world, that changes the whole 
equation of close combat. I think that is important.
    Sometimes, acquisition people just do not understand that. 
That is why I think close combat soldiers and marines should be 
the ones to dictate what this rifle is going to look like.
    Senator King. It is more than just physics.
    In terms of the time, Madam Chair, we have to do something 
about that. I mean, 7 years, during World War II, Bath Iron 
Works in Bath, Maine, built a destroyer every 2 weeks. Why? 
Because we needed them.
    I think this is a case that we need this weapon, and we 
should not have to wait. We need a skunkworks or something, a 
way to get around this acquisition problem.
    By the way, this is a problem throughout the Federal 
Government. We had a hearing this morning in the Budget 
Committee. The same problem with acquisition for computers for 
the FBI or whatever. The Federal acquisition process is a 
nightmare. I would call it byzantine, but that would be an 
insult to the Byzantine Empire.
    Thank you, Madam Chair.
    Senator Ernst. Thank you Senator King very much.
    I do think we have an immediate need here. We need to 
fulfill our obligation as Congress to our young men and now 
women who are serving in our combat arms.
    I am going to close with a question for you, General 
Scales. In your statement, you had mentioned that the 50 cal Ma 
Deuce is coming up on its 100th anniversary.
    MG Scales. Yes, in 2 years.
    Senator Ernst. Hundredth anniversary, that is pretty 
incredible.
    The Marine Corps recently came out with new upgrades for 
the 50 cal putting on a flash suppressor that reduces the gun 
signature by 95 percent at night. That is incredible.
    MG Scales. Right. Think of the implications of that. I 
mean, the Navy and the Air Force have spent hundreds of 
billions of dollars to build stealth fighters. Well, the ground 
analogy to a stealth fighter is a stealth sniper rifle or a 
stealth rifle that has no flash at night. The 50 caliber has 
virtually no flash, if it is properly suppressed, is a better 
word, not silenced. The sound, in terms of decibels, is one-
fifth of the enemy.
    I think I mentioned earlier, when you are in a firefight 
and the IED goes off or the enemy opens up with an ambush, you 
bury your face in the ground. When you look up, you should at 
sound. You do not shoot at people.
    I think it would be transformational--oh, and I asked the 
Commander of 3/5 Marines back in November when I visited 29 
Palms, I said, it must have been--this is so typical of my 
friends the Marines. I said it must have been expensive to put 
a suppressor on every one of your rifles. He said, damn, sir, 
20 bucks apiece. It was really expensive.
    Senator Ernst. Isn't that something,
    MG Scales. Twenty bucks apiece.
    Senator Ernst. Isn't that something? So is that something 
our industry is working on, cheap suppressors?
    MG Scales. No.
    Senator Ernst. Inexpensive suppressors?
    MG Scales. Not that I know of.
    Senator Ernst. Isn't that something that we should be 
demanding?
    MG Scales. Yes.
    Senator Ernst. Okay.
    MG Scales. Absolutely.
    Senator Ernst. That is my belief is well.
    Do we see this happening with our adversaries or other 
countries? Are they suppressing the larger caliber rifles like 
that?
    MG Scales. I do not know about the larger caliber. I know 
that the Russian sniper rifle, the Dragunov, and they have a 
new one.
    If you look at pictures of the little green men in the 
Ukraine, you can see several things. You can see this new 
heavy, stiff, metal-backed body armor. You can see the 
Russians' new helmet. They have squad-size radios that are 
smaller than ours. They have their use of sensors. As Mick 
said, their use of tactical UAVs [Unmanned Aerial Vehicles] is 
exceptional. Their rifle bullet will penetrate our body armor.
    In fact, Senator King and I were talking yesterday, the 
analogy is very much similar to World War II in tank-on-tank 
warfare. It was not until we went up against the Germans that 
we realized that our M4 tanks could be penetrated by the German 
guns, and we could not penetrate the Panther tanks. General 
Bradley lost 3,380 tanks in tank-on-tank engagements in 11 
months of warfare because the Army did not discover until too 
late that our tank guns were outmatched by the German tank 
guns.
    This is just an infantry analogy to the same problem. The 
only difference is, by my calculations, in wars since World War 
II, over 58,000 infantrymen have died in close combat--58,000. 
Why not make sure when they go to war next time, our bullets 
penetrate their body armor and their bullets do not penetrate 
ours? There is nothing complicated about any of this.
    LTG Bednarek. Senator, what we do know, particularly with 
the variants of the AK-47, as General Scale highlighted, and 
you asked the question, not only the AKM, the AK-74, but also 
the AK-12, which came out of recent technology, and it is 
similar to what our industry has already been looking at, but 
it is a modular system. It is kind of like the plug-and-play, 
not only suppressors but different folding stocks, weapon 
systems, upper receivers, sites, and also the modular 
adjustable caliber weapon capability.
    Senator Ernst. Any closing thoughts, Senator King?
    Okay, gentlemen, I will close by thanking you very much for 
your testimony today. Your input has been very important. This 
is an important topic for many of us in the
    United States Senate and one that we will continue to 
pursue through fruition. That is the goal, to make sure that we 
have advanced small arms weapons in our infantrymen's hands, 
Marines and Army.
    God bless you for the work that you are doing. We will 
continue the good fight, and I look forward to having many more 
discussions as we work through the hopefully soon acquisition 
process. So thank you very much, gentlemen.
    MG Scales. Thank you very much, Senator.
    Senator Ernst. We will close this Senate hearing.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
